Supreme Court, U.S.
FILED

WAIVER

JAN 25 2021
OFFICE OF THE CLERK

SUPREME COURT OF THE UNITED STATES
Supreme Court Case No

Akando Ducksworth

20-6723
V Hal MacMurdo, et al

(Petitioner)

(Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of
certiorari unless one is requested
by the Court.
Please check the appropriate boxes:
0 Please enter my appearance as Counsel of Record for all respondents.
0 There are multiple respondents, and I do not represent all respon
dents. Please enter my
appearance as Counsel of Record for the following respondent(s):

0 I am a member of the Bar of the Supreme Court of the United States.
0 I am not presently a member of the Bar of this Court. Should a respons
e be requested, the response
will be filed by a Bar member.
Signature s/Andrew Blanchfield

01/25/2021
(Type or print) Name Andrew Blanchfield
Date.

0 Mr.

❑ Ms. 0 Mrs. 0 Miss

Firm Keogh, Cox & Wilson, Ltd.
Address P.O. Box 1151
City & State Baton Rouge, LA
Zip 70821
Phone (225) 383-3796
Email ablanchfield@keoghcox.com
A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNS
EL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE
RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE
IS REQUIRED.

CC: Akando Ducksworth

RECEIVED
JAN 2 8 2021
THE CLERK

SUPREMECOURT U.S.

Keogh, Cox & Wilson, Ltd.
701 Main Street, Baton Rouge, LA 70802
P.O. Box 1151, Baton Rouge, LA 70821
P 225 383 3796 F 225 343 9612
keoghcox.com

ANDREW BLANCHFIELD, Partner
ablanchfieldkeoqhcox.com

January 25, 2021
VIA FEDERAL EXPRESS
Honorable Scott S. Harris
Clerk of Court
Supreme Court of the United States
1 First Street, NE
Washington, DC 20543
RE:

Supreme Court Case No.: 20-6723
Akando Ducksworth v. Hal MacMurdo, et al

Dear Mr. Harris:
Enclosed please find a Waiver on behalf of Respondents regarding a respon
se to the
petition for writ of certiorari in connection with the referenced matter.
Thank you for your assistance.
Sincerely,
JEFF LANDRY
Attorney General

By:
Andrew Blanch field (#16812)
Special Assistant Attorney General
AB:pd
Enclosure
cc: Akando Ducksworth (w-encl)

